Department of Health and Human Services

       OFFICE OF

  INSPECTOR GENERAL





    HOSPITAL CLOSURE: 1994





                    p$ SERVIC8$
                &                 %“
            +

       E*                              JUNE  GIBBS BROWN
       :                               Inspector General
       %
       %
         %++ $
                    %d~~
                    2                         FEBRUARY 1996
                                               OEI-04-95-0010()
                           OFFICE OF INSPECTOR GENERAL

     The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
     amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
     programs as well as the health and welfare of beneficiaries served by those programs. This
     statuto~ mission is carried out through a nationwide network of audits, investigations, and
     inspections conducted by three OIG operating components: the Office of Audit Setvices, the
     Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
     the %reta~ of HHS of program and management problems and recommends courses to
     correct them.

                               OFFICE OF AUDIT SERVICES

     The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
     conducting audits with its own audit resources or by overseeing audit work done by others.
     Audits examine the performance of HHS programs and/or its grantees and contractors in
     carrying out their respective responsibilities and are intended to provide independent
     assessments of HHS programs and operations in order to reduce waste, abuse, and
     mismanagement and to promote economy and efficiency throughout the Department.

                               OFFICE OF INVESTIGATIONS

     The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
     investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
     unjust enrichment by providem. The investigative efforts of 01 lead to criminal convictions,
     administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
     control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                   OFFICE OF EVALUATION AND INSPECTIONS

     The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
     program evaluations (called inspections) that focus on issues of concern to the Department,
     the Congress, and the public. The findings and recommendations contained in these inspection
     reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
     and effectiveness of departmental programs.

     OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
     Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
     Principal OEI staff included:



     Ron Kalil, Team Leader                               Winnie Walker, Program Specialist
     Peggy Daniel, Program Analyst                        Linda Moscoe, Program Analyst
     Paula Bowker, Program Analyst

     For additional copies of this report, please call the Atlanta Regional Office at (404)-331-4108.




—-
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





    HOSPITAL CLOSURE: 1994





                 sERVICq
             #
         &                 @T

        w
        ;                       JUNE  GIBBS BROWN
        <                       Inspector General

        2

        %

          %$
 $
                                       FE13RUARY 1996
           %daa
            >                           OEI-O4-95-OO1OO

                 EXECUTIVE                        SUMMARY


PURPOSE

To describe the extent, characteristics, and impact of hospital closure in 1994.

BACKGROUND

The closure of hospitals in recent years has generated public and congressional concern.
According to a number of studies, more hospitals are expected to close in coming years.
Questions have been raised about the phenomenon of hospital closure, as well as the
implications for public policy.

We released a report in May 1989 describing the nationwide phenomenon of hospital
closure in 1987. We continued our analysis of hospital closure to determine trends and
effects of the phenomenon. We issued subsequent annual reports on hospital closure in
1988 through 1993.

The findings from all the previous OIG studies of hospital closure were similar. The
hospitals that closed were small and had low occupancy rates. When the hospitals
closed, few patients were affected. Most could get medical care nearby.

FINDINGS

Our inspection of hospital closure in 1994 produced findings similar to those previously
reported for 1987-1993.

F	     Sixteen general, acute care hospitals closed, continuing a downward trend in the
       annual number of closures. This is the lowest number of closings in one year
       since we began this series of reports. The highest number of closures was 88 in
       1988. Six new general, acute care hospitals opened in 1994, and seven hospitals
       that closed prior to 1993 reopened in 1994.

E      Five of the closed hospitals were rural and 11 were urban.

E	     Closed hospitals in both rural and urban areas were much smaller than the
       national averages.

              Rural hospitals that closed had an average of 19 beds as compared to an
              average of 80 beds for all rural hospitals nationally.

              Urban hospitals that closed had an average of 97 beds as compared to an
              average of 303 beds for all urban hospitals nationally.




                                              i
�    Occupancy rates for closed rural and urban hospitals were lower than the national
     averages.

            Rural hospitals that closed had an average occupancy rateof 28 percentas
            compared to anaverageof35      percent for all rural hospitals nationally.
            The average daily census in theyear prior to closure was about 5 patients.

            Urban hospitals that closed hadan average occupancy rate of41 percent as
            compared to anaverageof53      percent for all urban hospitals nationally.
            The average daily census in the year prior to closure was about 39 patients.

b	   The average Medicare utilization of hospitals that closed was about the same as
     all hospitals nationally.

            In rural areas, the average Medicare utilization among hospitals that closed
            was 55.4 percent compared to an average of 55.5 percent for all rural
            hospitals nationally. About 3Medicare patients were inthehospital     on an
            average day in the year prior to closure.

            In urban areas, the average Medicare utilization among hospitals that
            closed was 49.8 percent compared to an average of 47.9 percent for all
            urban hospitals nationally. About 20 Medicare patients were in the
            hospital on an average day in the year prior to closure.

E	   Medicaid utilization of hospitals that closed was slightly higher than the national
     averages.

            In rural areas, the average Medicaid utilization among hospitals that closed
            was 13.8 percent as compared to an average of 12.8 percent for all
            hospitals nationally.

            In urban areas, the average Medicaid utilization among hospitals that
            closed was 16.7 percent as compared to an average of 14 percent for all
            urban hospitals nationally.

�    Although residents in a few communities had to travel greater distances for
     hospital care, most had emergency and inpatient medical care available within 10
     miles of a closed hospital.

�    At the time of our inspection, 8 of the 16 closed hospital facilities (50 percent)
     were being used for health-related services. Also, plans were being made to use 3
     of the remaining 8 vacant hospitals for health-related services.




                                             ii
                     TABLE                    OF CONTENTS


ExEcumm       summary            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


     Extent and Characteristics         of Closed Hospitals              . . . . . . . . . . . . . . . . . . . . . ...3


             How Many Closed . . . . . . . .           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3


             Where Were They . . . . . . . .           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    4


             What Were They Like . . . . .             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    4


     Impact of Hospital Closure            ......      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    7


             How Many Patients Were Affected                     . . . . . . . . . . . . . . . . . . . . . . . . . . ..7


            Are Inpatient Care and Emergency

             Servijes Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


             What Is the Building Used For Now                     . . . . . . . . . . . . . . . . . . . . . . . . . ..9


             ......................................................                                                        10

APPENDICES

     Methodology        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 A-1

     Number of Hospital Closuresby               State     . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 B-1

     Hospital Closures byHospital            Name andhcation                 . . . . . . . . . . . . . . . . . . . .
 c-1
                                           INTRODUCTION


PURPOSE

To describe the extent, characteristics, and impact of hospital closure in 1994.

BACKGROUND

Over the last decade, closure of general, acute care hospitals has generated public and
congressional concern. Numerous questions have been raised about the impact of
hospital closure in the United States, as well as implications for public policy. A number
of studies predicted that more hospitals would close in coming years.

The Office of Inspector General released a report in May 1989 describing the
phenomenon of hospital closure during 1987 in the United States. We found that the
hospitals that closed were small and their closing did not severely affect access to care.
Many users of our 1987 hospital closure study encouraged us to continue year-by-year
analyses of the phenomenon to detect differences in the rate of hospital closure, and in
the characteristics and circumstances of hospitals that close.

Similar inspections of the phenomenon of hospital closure in 1988 through 1993 showed
a downward trend in the number of closures.


                                                HOSPITAL                  CLOSURE
                               #    of    Clomwo=     In    U.S.
                *oo        -




                  80-                                        76




                  60-




                  40-




                  20-




                      0-
                                   19a7       l!aee        3989    1990     1991    1992   1993

                                                                   YEAR




                                                                   1

The findings from the 1987 through 1993 inspections were similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.

SCOPE

We examined hospitals that closed in calendar year 1994.

For purposes of this study, the following definitions were used.

Hospital: A facility that provides general, short-term, acute medical and surgical
inpatient services.

Closed Hospital: One that stopped providing general, short-term, acute inpatient
services in 1994. If a hospital merged with or was sold to another hospital but the
physical plant continued to provide inpatient acute care, it was not considered a closure.
If a hospital both closed and reopened in 1994, it was not considered a closure.

METHODOLOGY

To determine the extent and impact of hospital closure, we obtained information from
State licensing and certification agencies, State health planning agencies, State hospital
associations, HCFA data bases, officials associated with closed and nearby hospitals, and
local public officials.

We obtained information on the characteristics of all hospitals and those that closed in
1994 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

Appendix A describes our methodology in further detail.

We conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             2

                                   FINDINGS


The Inspector General’s study ofhospitals   closedin   1994 showed that:

�	     %xteeng eneral,a cutecareh ospitalsc losedin  1994, continuing a downward trend
       in the annual number of closures. Twenty-six fewer hospitals closed in 1994 than
       in the previous year.

F      Most hospitals that closed were small and had low occupancy rates.

�	    Although residents of a few communities had to travel greater distances for
      hospital care, most had emergency and inpatient medical care available within 10
      miles of a closed hospital.


EXTENT AND CHARACTERISTICS OF CLOSED HOSPITALS

How Many Clad

In 1994, there were 5,127 general, short-term, acute care hospitals in the United States
entered on HCFA’S data base as participating in the Medicare program. Sixteen
hospitals closed in 1994 -- 0.3 percent of all hospitals nationally. Twenty-six fewer
hospitals closed in 1994 than in the previous year.




Closure of the 16 general, acute care hospitals reduced inpatient bed supply by 1,161
beds, or 0.1 percent.

While 16 hospitals closed in 1994, 6 new general, acute care hospitals opened, adding 620
beds to the national supply of beds. In addition to the new hospital openings, 7
previously closed hospitals reopened in 1994,adding another 416 beds.




                                             3

Where Were l%ey

Theclosed hospitals were locatedin 14 States. Two States hadtwoclosures       each, and
the remaining 12 States had 1 closure each. Appendix B lists the number of hospital
closures by State. Appendix C lists the closures by hospital name and location.

About the same percentage of rural and urban hospitals closed in 1994.




What   Wme the Cihwd     Hmpitah Like

~:    Hospitals that closed in 1994 were small. Half the hospitals that closed had 50
beds or less.


                             ~ti”   ~F”~S13D        ~@P~&-Si
                                               Number of Closed Hospitals

              Number of Beds             Rural           Urban           Total

                0-30                       4                1           5 (31%)

               31-50                       1                2           3 (19%)

               51-100                      0                6           6 (38%)

               101-200                     0                1           1 (6%)
               201-300                     0                1           1 (6%)

               301>                        0

                   Totals                  5
                                                           :1       b




                                               4

Both the rural and urban hospitals that closed in 1994 were considerably smaller than the
average size of rural and urb~n general, acute care hospitals nationally.


                                              HOSPITALS                          THAT   CLOSED
                                                      WERE                        SMALL

                ==0 _#                   of    Beds
                                                                                                   303
                300         –


                260         –


                200         –


                150–


                loo–


                  60        –


                       o–
                                         RURAL           HOSPITALS                   URSAN            HOSPITALS


                                     -           National         Avg        -       ClosciDd        Hospital         Avg




         w    Occupancy rates for closed rural and urban hospitals were lower than the
national averages.l

                                OCCUPANCY                               RATES               WERE                LOW

                60%         –
                                                                                           62.7%


                60%         –




                40%         –                  36.2%
                                          /                 A



                30%         –




                20%         –




                lo%–




                 0%         –
                                     RURAL           HOSPITALS                   URBAN          HOSPITALS



                                 -            Nationai          Avg     -        Cios.ci        H.spitai        A.g




                                                                        5

Medicare Utilization: ~eaverage     Medicare utilimtion among rural hospitals that closed
was about the same as rural hospitals nationally. The average Medicare utilization
among urban hospitals that closed was slightly higher than the national average.z

                                        MEDICARE                              UTILIZATION
                 70%       –



                 so%       –                   65.6%         5s.4%

                                                                                                        49.s%
                                                                                         47.9%
                 60%       –



                 40%       –



                 so%       –



                 20%       –



                 lo%–



                  0%       –
                                       RURAL           HOSPITALS                URBAN            HOSPITALS



                                   -       National          Avg          -     closed       Hospital           Avg




Medicaid Utilization: In both rural and urban areas, the average Medicaid utilization
among hospitals that closed was higher than the national averages.3

                                        MEDICAID                              UTILIZATION
                 20%

                  1 s%

                  1 e%

                  14%

                  1 2%


                  1   o%

                      e%

                      en

                      4%


                      2%


                      o%
                                   RURAL           HOSPITALS                    URBAN        HOSPITALS



                               -           National          Avg      -         Closed       Hospital           Avg




                                                                     6

IMPACI’ OF HOSPITAL CLOSURE

Incommunities    where hospitals closedin     1994, we assessed the


E      number of patients affected by closure of hospitals,


F      availability of inpatient care and emergency medical services, and


b      current use of closed hospital facilities.


How hill   Patienb WereAfiected

For rural hospitals that closed in 1994, the average daily census in the year prior to
closure was about 5 patients. The urban hospitals that closed had an average daily
census of about 39 patients.




                                                     Rural Hospitals    Urban Hospitals
    Average Number of Beds                                  18.8                  97.0
    Average Occupancy Rate                              X   27.8.$ZO          X   40.6%
    Average Number of Patients                              5.2                   39.4


We analyzed Medicare utilization data to determine the number of elderly patients
affected by hospital closure in 1994. In rural hospitals that closed, about 3 Medicare
patients were in the hospital on an average day in the year prior to closure. In the urban
hospitals that closed, about 20 Medicare patients were in the hospital on an average day.




                                                     Rural Hospitals    Urban Hospitals
    Average Patient Census                                  5.2                   39.4
    Average Medicare Utilization Rate                   x 55.470              X   49.89Z0
    Average Number Medicare Patients                        2.9                   19.6




                                                7

Are InpatikruCare&      EmergencySenicesAvaikble

We assessed availability of inpatient and emergency medical care in miles from a closed
hospital to the nearest inpatient and emergency facilities.

Imatient Care: In most communities where a hospital closed in 1994, inpatient hospital
care was available nearby.




                                                     NUMBER OF CLOSED
                                                         HOSPITALS
               DISTANCE                                   Rural         Urban
               Within 3 Miles                        1 (20%)        6 (55%)

               4-10 Miles                            o	             5 (45%)
                11-20 Miles                          3 (60%)        o
               21-30Miles                            1 (20%)        o

               More than 30 Miles                    o              0
                                    Totals           5 (loo%)       11 (loo%)

Rural Areas: Residents in 4 of the 5 rural communities (80 percent) where a hospital
closed could get inpatient hospital care within 20 miles of the closed hospital. However,
residents of Philipsburg, Montana had to travel 30 miles for full service inpatient hospital
care. This frontier community converted its closed hospital into a Medical Assistance
Facility (MAF). The 3-bed MAF facility provides up to four days of limited inpatient
semices.

Urban Areas: In all 11 urban communities where a hospital closed in 1994, residents
could get inpatient hospital care within 10 miles of the closed hospital. Seven of the
eleven urban communities (64 percent) where a hospital closed could get inpatient care
in the same town.

Ememenw Services: When a hospital closed, the community lost not only inpatient beds,
but also 24-hour emergency services.

Rural Areas: In all 5 rural communities where a hospital closed in 1994, emergency care
facilities were available within 20 miles of the closed hospital.

Urban Areas: In all 11 urban communities where a hospital closed in 1994, emergency
care facilities were available within 10 miles of the closed hospital. Eight of the 11 urban




                                              8

communities (73 percent) where a hospital closed could get emergency services in the
same town.


              NEAREST        ii@RWK!Y
                                    S3RVI@ ‘i@
                                             CL@f3i3
                                                 HW”i@ii@                              ..
                                                            NUMBER OF CLOSED
                                                                HOSPITALS
           DISTANCE                                          Rural           Urban
           Within 3 Miles                                    2 (40%)         7 (64%)
           4-10 Miles                                        o               4 (36%)
           11-20 Miles                                       3 (60%)         o
           21-30 Miles                                       o               0
          More than 30 Miles                                 o               0
                                   Totals                    5 (loo%)       11 (loo%)
     L.

~         Is the hikiing   thd     For NOW

At the time of our review, 8 of the 16 closed hospital buildings (50 percent) were being
used for health-related          services. For example:

b	         Physicians and Surgeons Hospital in Shreveport, Louisiana became a nursing
           home and substance abuse facility.

�	         Winthrop Hospital in Winthrop, Massachusetts is now a 24-hour urgent care
           center.

F	         Lumberton Citizens Hospital in Lumberton, Mississippi was converted to a home
           health agency and doctor’s office.

�	         Granite County Memorial Hospital in Philipsburg, Montana was converted to a
           HCFA sponsored Medical Assistance Facility. In addition to providing limited
           inpatient care, it provides 24-hour emergency services and outpatient care. The
           Office of Inspector General released a report on Medical Asszktance Facilities
           (OEI-04-92-O0731) in July 1993.

At the time of our review, community officials were planning to use 3 of the remaining 8

vacant hospitals for health-related services. Lakefield Municipal Hospital in Lakefield,

Minnesota will be converted to an assisted elderly living facility. Also, community

officials in two locations where hospitals closed plan to reopen the facility as acute care

hospitals.





                                                     9

                                      ENDNOTES


1.	   Hospital occupancy rate is defined as the actual number of patient days divided by
      the total bed days available. National average occupancy rate is defined as the
      sum of all hospitals’ occupancy rates, divided by the number of hospitals.

2.	   Average Medicare utilization of closed rural and urban hospitals is defined as the
      percent of Medicare patient days compared to the total patient days for each
      hospital, summed and divided by the number of hospitals. National average
      Medicare utilization is the percent of Medicare utilization of each hospital,
      summed and divided by the total number of hospitals.

3.    Medicaid utilization is calculated in the same way as Medicare utilization.




                                            10

                                     APPENDIX                  A�

                                         METHODOLOGY

     Extentof Hmpitol Closure

     To determine how many hospitals closed in 1994, we surveyed State licensing and
     certification agencies, State hospital associations, and State health planning agencies. We
     also compiled Health Care Financing Administration (HCFA) data on terminated
     providers in 1994. When a closed hospital met the study’s definition or when there were
     questions, we contacted officials associated with the closed hospitals, officials associated
     with hospitals nearest to the closed hospital, and local public officials.

     To determine the number of hospitals in the United States, we used the Hospital Cost
     Report Information System (HCRIS) maintained by HCFA. We included only general,
     short-term, acute care hospitals under Medicare’s Prospective Payment System (PPS) in
     the universe. There were 5,127 hospitals listed on HCRIS as short-term, acute care,
     general hospitals for the tenth year of PPS (PPS 10).

     Charucteridcsof Hqpital Cl&ure

     To analyze characteristics of closed hospitals, we used HCRIS data. We used the latest
     pre-closure cost reports. For example, if a hospital closed in May 1994 and its
     accounting year was on a January-December cycle, we used the provider’s January 1,
     1993 to December 31, 1993 report.

     Impct of Hapital Closure

     We limited our “impact” analysis to the distance from a closed hospital to the nearest
     still-operating hospitals and to emergency services. We obtained data for our analysis
     from interviews with the following sources.

     �      Former hospital administrators, board members, and/or staff of closed hospitals

     �     Hospital administrators   and/or staff at the nearest hospitals

     �     Local police, health, and government officials

     F     State health planning agencies

     E     State certification and licensing agencies

     �     State hospital associations




                                                 A -1



—_
B-1
                                       APPENDIX         C�



Hospital Name
                               City
Los Medanos Community Hospital
             Pittsburg        CA   urban
Destin Hospital
                            Destin           FL   urban
Woodstock Hospital
                         Woodstock        GA   urban
Wellington Hospital and Clinic
             Wellington       KS   rural
Physicians and Surgeons Hospital
           Shreveport       LA   urban
Winthrop Hospital
                          Winthrop              urban
Lakefield Municipal Hospital
               Lakefield        MN   rural
Healtheast Divine Redeemer Hospital
        South St. Paul   MN   urban
Lumberton Citizens Hospital
                Lumberton        MS   rural
Granite County Memorial Hospital
           Philipsburg           rural
Medical Arts Center Hospital
               New York         NY   urban
Parkview Hospital
                          Toledo           OH   urban
Sacred Heart Hospital
                      Norristown       PA   urban
Doctors Memorial Hospital
                  Spartanburg      Sc   urban
Lee County Memorial Hospital
               Bishopville      Sc   rural
Metropolitan Hospital
                      Chattanooga      TN   urban




                                            c-1
